                        U.S. Department of Agriculture
                           Office of Inspector General




       Procurement Oversight Audit of
Architect-Engineer Services Contract Awarded
  by Agricultural Research Service to Delta
         Engineers & Architects, P.C.




                                 Audit Report 02703-05-HQ
                                           September 2011
                                U.S. Department of Agriculture
                                 Office of Inspector General
                                   Washington, D.C. 20250




DATE:          September 30, 2011

AUDIT
NUMBER:        02703-05-HQ

TO:            Ed Knipling
               Administrator
               Agricultural Research Service

ATTN:          Michelle Garner
               Acting Director
               Financial Management Division

FROM:          Gil H. Harden /s/
               Assistant Inspector General
                 for Audit


SUBJECT:       Procurement Oversight Audit of Architect-Engineer Services Contract
               Awarded by Agricultural Research Service to Delta Engineers &
               Architects, P.C.


This report presents the results of the Procurement Oversight Audit of Architect-Engineer
Services Contract awarded by Agricultural Research Service to Delta Engineers &
Architects, P.C. Your response to the official draft is included in its entirety as an exhibit to
this report.

Regis & Associates, PC, was engaged to conduct the audit to ensure that the transparency
and accountability requirements of the Recovery Act are met and to ensure that Agricultural
Research Service’s Recovery Act procurement activities are performed in accordance with
Federal Acquisition Regulations, Office of Management and Budget guidance, and Recovery
Act requirements. During our oversight of the contract, we reviewed Regis & Associates,
PC’s report and related documentation. Our review, as differentiated from an audit, in
accordance with Government Auditing Standards (issued by the Comptroller General of the
United States), disclosed no instances where Regis & Associates, PC’s audit did not comply,
in all material respects, with Government Auditing Standards.
Ed Knipling                                                                            2


Based on your response, we are able to reach management decision on Recommendations 1 and 2,
the only recommendations contained in this report. A second finding was noted in this report but
did not contain recommendations because the issue was corrected during the course of the audit.
No further response for this report is necessary.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
DATE:                       September 29, 2011

REPLY TO
ATTN OF:                    02703-05-HQ

TO:                         Jane A. Bannon
                            Audit Director
                            IT Audit Operations and Departmental Management
                            Department of Agriculture, Office of Inspector General

FROM:                       Regis & Associates, PC             /s/

SUBJECT:                    Procurement Oversight Audit of Architect-Engineer Services’ Contract
                            Awarded by Agricultural Research Service to Delta Engineers &
                            Architects, P.C.

The American Recovery and Reinvestment Act of 2009 (the Recovery Act), provided the
Department of Agriculture’s (USDA) Agricultural Research Service (ARS) with $176 million to
reduce the backlog of facilities’ critical deferred maintenance projects. On September 29, 2009,
ARS awarded a sole-source, negotiated, firm-fixed price Architect-Engineer services contract to
Delta Engineers & Architects, P.C., to provide bid phase and construction management services
for the replacement of the chiller, generator, and underground storage tank at the USDA Jean
Mayer Human Nutrition Research Center for Aging (HNRCA), located in Boston,
Massachusetts. The contract, including modifications, amounted to $256,636. ARS’ Facilities
Division in Beltsville, Maryland, performed the procurement activities and contract
management, including issuance of the solicitation, contract award, contractor payment approval,
and monitoring of the contractor’s Recovery Act reporting. ARS’ Financial Management
Division (FMD) reported the agency Recovery Act fund statistics on Recovery.gov, through
SharePoint.1

In enacting the law, Congress emphasized the need for the Recovery Act to provide for
unprecedented levels of transparency and accountability, so that taxpayers know how, when, and
where tax dollars are being spent. To accomplish this objective, the Office of Management and
Budget (OMB) issued various implementing guidelines that require Federal agencies receiving
Recovery Act funds to post key information on Recovery.gov. In addition, agencies must submit
weekly updates, monthly financial status reports, award transaction data feeds, and an agency
Recovery Act plan to OMB and to the Recovery page of the agency’s website.

The Recovery Act also provided USDA’s Office of Inspector General (OIG) funding for
oversight and audits of USDA programs, grants, and activities funded by the Recovery Act.
OMB guidance states that OIGs will perform audits and inspections of their respective agencies’

1
    SharePoint is an electronic database for USDA’s Recovery Act data collection.



                                                           1
processes for awarding, disbursing, and monitoring Recovery Act funds, to determine whether
safeguards exist for ensuring funds are used for their intended purposes.

To ensure that the transparency and accountability requirements of the Recovery Act are met,
USDA/OIG contracted with Regis & Associates, PC, to assist in ensuring that ARS’ Recovery
Act procurement activities are performed in accordance with Federal Acquisition
Regulations (FAR), OMB guidance, and Recovery Act requirements. This audit was performed
in accordance with generally accepted government auditing standards, and standards established
by the American Institute of Certified Public Accountants.

During this audit, we reviewed applicable laws and regulations pertaining to procurement
activities, contract oversight, and Recovery Act reporting. We also obtained and reviewed ARS’
organizational documents relating to management controls, policies and procedures for the
procurement and contracting functions, financial management, and other processes that would
ensure compliance with the Recovery Act.

The scope of this audit included a review of the justification for a sole-source acquisition;
processes for preparing and issuing the solicitation, contractor selection, contract price
determination, contract award, performance monitoring, and invoice processing and payments to
determine whether ARS followed departmental and agency policies and procedures, FAR, and
Recovery Act requirements. We noted that the contract was awarded on a sole-source basis
because ARS determined that the contractor possessed unique qualifications. According to the
ARS Contracting Officer, the original engineering documents for the project were signed, sealed,
and dated by a professional engineer employed by Delta Engineers & Architects, P.C., who
prepared and approved the documents. As such, the contractor assumed liability for the design
represented by the engineering project documents. In order to maintain a single source of
liability, any corrections, revisions, or additions made to the project design were required to be
made by the professional engineer, or a company representative, who originally signed and
sealed the documents. Consequently, ARS’ management determined that it was in the best
interest of the government to contract with Delta Engineers & Architects, P.C., to perform the
bid phase and construction management services in order to mitigate the risks that could arise
from errors and/or deficiencies with the design of the project. We agree with the justification for
awarding the contract on a sole-source basis, and no issues were noted.

We performed procedures, as necessary, to determine whether the procurement was based on fair
and reasonable price estimates, that the contract was awarded to a contractor with appropriate
qualifications, and that processes were in place to ensure that the contractor provided
services/products in accordance with contract terms. We found ARS’ contracting staff, including
the contracting officer, contract specialist, and contracting officer’s technical representative,
were experienced and qualified to award and monitor the contract and no issues were noted in
these areas that would warrant reporting.

However, we identified two issues that warrant reporting. We noted that ARS’ Facilities
Division delayed the publication of a contract modification on FedBizOpps.gov, and did not



                                                 2
include the modification price in the post-award notice. During the course of our review of this
contract, we also noted that ARS was assessed a late payment fee due to a prompt payment
issue.2

Finding 1: Incomplete and Delayed Publication of Contract Modification Award Notice

ARS awarded a contract modification and publicized the award notice on FedBizOpps.gov.
However, the notice was not publicized in a timely manner and the dollar amount was not
disclosed, as required by FAR, part 5.207. The modification was awarded on January 8, 2010,
for $200,221, and notification that an award occurred was publicized on FedBizOpps.gov on
April 15, 2010, 97 days after the award, and the dollar amount was not included. We noted ARS
reported other contract actions within one day and we do not consider 97 days timely.

ARS has a Standard Operating Procedure (CSOP 02-005), Posting Solicitations and Other
Announcements and Notices on FedBizOpps, that requires its Contracting Officer to post contract
actions on FedBizOpps.gov in accordance with FAR part 5.

OMB’s Updated Implementing Guidance for the Recovery Act (M-09-15) states, that “timely and
accurate information reporting by the Federal agencies provides both the Congress and taxpayers
an ability to track and monitor all Recovery funds with the level of transparency and
accountability envisioned in the Act.”

We discussed this condition with ARS’ Lead Contract Specialist, and he stated that, after the
draft notice of award went through ARS’ management approval process, it did not get posted
immediately on FedBizOpps.gov as a result of an oversight by the Contract Specialist. When the
error was later identified during ARS’ management review of the contract file, the notice of
award, noting the rationale for awarding the modification on a non-competitive basis was posted,
however, the dollar amount was not included, as required in FAR, part 5.207. 3 ARS’
management review process was not effective, resulting in contractual actions not being
processed in a timely manner and not disclosing the dollar amount.

The ability of the taxpayer to track and monitor all Recovery Act funds with the level of
transparency and accountability envisioned in the Act is impaired when award notices are not
publicized in a timely manner on FedBizOpps.gov, and when the contract modification price is
not included.

Recommendation 1

ARS needs to take necessary action to provide complete and timely reporting for Recovery Act
contracts posted on FedBizOpps.gov.



2
    This issue was previously reported to ARS in audit report 02703-04-HQ.
3
    As required by FAR 5.207(a)(12).



                                                          3
Recommendation 2

ARS’ managerial reviews need to be effective, thus ensuring compliance with
applicable contract regulations.

Finding 2: Contractor’s Invoice Was Not Paid in a Timely Manner

At the completion of audit fieldwork, ARS’ Facilities Division had paid 13 contractor
invoices, with a total value of $252,004, which represented about 98 percent of total contract
price of
$256,636. We did note that one proper invoice, in the amount of $4,015.50, was paid 71
days after the due date.

FAR part 32.904(c)(i) states that, the due date for making payments under fixed-price
Architect- Engineer contracts is the 30th day after the designated billing office receives a
proper invoice from the contractor.

The Contracting Officer stated that the payment was late due to technical difficulties that ARS
experienced in payment processing when it changed its accounting system from Foundation
Financial Information System (FFIS) to Financial Management Modernization Initiative
(FMMI). As a result of not paying the vendor in a timely manner, ARS incurred and paid a
late payment interest penalty of $38.17.

We are not making any recommendations since ARS has resolved the technical difficulties it
had in payment processing by successfully changing its accounting system from FFIS to
FMMI. We reviewed subsequent contractor invoices and noted that they were all paid in a
timely manner.




                                                 4
Agency’s Response




                    USDA’S



   AGRICULTURAL RESEARCH SERVICE



         RESPONSE TO AUDIT REPORT
September 28, 2011



SUBJECT:      Management’s Response to Recommendations in Audit 02703-05-HQ –
              Procurement Oversight Audit of Architect-Engineer Services’ Contract Awarded
              by the Agricultural Research Service to Delta Engineers & Architects, PC


      TO:     Gil H. Harden
              Assistant Inspector General for Audit
              Office of the Inspector General

              Jon M. Holladay
              Acting Chief Financial Officer
              Office of the Chief Financial Officer

   FROM:      Michelle D. Garner, Acting Director /s/
              Financial Management Division
              Acting Chief Financial Officer, REE


The Agricultural Research Service (ARS) provides the following response to audit
Recommendations 1 and 2 in Audit 02703-05-HQ –Procurement Oversight Audit of Architect-
Engineer Services’ Contract Awarded by the Agricultural Research Service to Delta Engineers &
Architects, PC


Finding 1: Incomplete and Delayed Publication of Contract Modification Award Notice


Recommendation 1


ARS needs to take necessary action to provide complete and timely reporting for Recovery Act
contracts posted on FedBizOpps.gov (FBO).


Agency Response
Additional oversight will be provided to ensure complete and timely reporting for Recovery Act
contracts posted on FBO. Management is registered on FBO and subscribes to daily notices
from FBO such that when ARRA actions are posted, notices are emailed to management. We
are monitoring all actions and notices. ARS will revise CSOP 02-005, Posting Solicitations and
Other Announcements and Notices on FedBizOpps, to include ARRA actions.
Gil H. Harden, et. al.                                                                   2


Recommendation 2


ARS’ managerial reviews need to be effective, thus ensuring compliance with applicable
contract regulations.


Agency Response


See Response to Recommendation 1.


Questions regarding this memorandum can be directed to Linnette D. Williams, Financial
Management Division on 301-504-1294, or via e-mail at Linnette.Williams@ars.usda.gov.


cc:
R. Herchak, FD
